HHS/OIG-Audit-"Report of Examination of The Administrative Costs Incurred Under the Health Insurance for the Aged and Disabled (Medicare) Part A Blue Cross and Blue Shield of New Jersey Newark New Jersey"(A-02-00-01019)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Report of Examination of the Administrative Costs Incurred Under the Health Insurance for the Aged and Disabled
(Medicare) Part A Blue Cross and Blue Shield of New Jersey for the Period October 1, 1994 Through September 30, 1997," (A-02-00-01019)
September 27, 2001
Complete
Text of Report is available in PDF format (629 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of an audit of administrative costs claimed by Blue Cross and Blue Shield of New Jersey
(BCBSNJ) for Medicare Part A during the period October 1, 1994 through September 30, 1997.  The objectives of the
audit were to (1) ascertain whether BCBSNJ's final administrative cost proposals presented fairly the costs of program
administration, (2) determine if the administrative costs claimed by BCBSNJ are reasonable, allocable, and allowable in
accordance with Part 31 of the Federal Acquisition Regulation, the Intermediary Manual and the Medicare contract and (3)
determine if BCBSNJ had effective systems of internal controls, accounting, and reporting for administrative costs incurred
under the program.  During the period BCBSNJ submitted Final Administrative Cost Proposals claiming costs of $24,520,134.  We
are questioning cost of $135,124.  The audit was performed by Leon Snead and Company, P.C., under contract with the
Department of Health and Human Services (DHHS), Office of Inspector General (OIG).